<html>
<title> - GROWING THE CLEAN ENERGY ECONOMY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    GROWING THE CLEAN ENERGY ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON RURAL DEVELOPMENT, AGRICULTURE, TRADE, AND 
                            ENTREPRENEURSHIP

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 10, 2019

                               __________

  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        
                               

            Small Business Committee Document Number 116-042
             Available via the GPO Website: www.govinfo.gov

                               _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-542                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            

                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Abby Finkenauer.............................................     1
Hon. John Joyce..................................................     3

                               WITNESSES

Dr. Lynn Abramson, President, Clean Energy Business Network, 
  Washington, DC.................................................     6
Mr. Thomas R. Brooks, General Manager, Western Dubuque Biodiesel, 
  Farley, IA.....................................................     7
Mr. Michael G. Williams, Deputy Director, BlueGreen Alliance, 
  Washington, DC.................................................     9
Mr. David J. Spigelmyer, President, Marcellus Shale Coalition 
  (MSC), Pittsburgh, PA..........................................    11

                                APPENDIX

Prepared Statements:
    Dr. Lynn Abramson, President, Clean Energy Business Network, 
      Washington, DC.............................................    25
    Mr. Thomas R. Brooks, General Manager, Western Dubuque 
      Biodiesel, Farley, IA......................................    32
    Mr. Michael G. Williams, Deputy Director, BlueGreen Alliance, 
      Washington, DC.............................................    39
    Mr. David J. Spigelmyer, President, Marcellus Shale Coalition 
      (MSC), Pittsburgh, PA......................................    47
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
                    GROWING THE CLEAN ENERGY ECONOMY

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2019

                  House of Representatives,
               Committee on Small Business,
                 Subcommittee on Rural Development,
                  Agriculture, Trade, and Entrepreneurship,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 [a.m.], in 
Room 2360, Rayburn House Office Building, Hon. Abby Finkenauer 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Finkenauer, Golden, Craig, Kelly, 
Hagedorn, Burchett, and Joyce.
    Chairwoman FINKENAUER. Good morning. The Subcommittee will 
come to order.
    And I just first want to say thank you, thank you, thank 
you to all of our witnesses who came here, traveled some long 
distances to get here, and it means a lot that you all took 
time out of your days to be here and join us here in Congress.
    I also want to say welcome back to the Committee members 
here. We are excited to jump back in and starting with a really 
important hearing here today.
    You know, as the Congresswoman from Iowa's First 
Congressional District, I know how important it is that we 
invest in clean energy and renewable fuels and how important 
those are to our economy and our environment.
    As the sector continues to grow and become a driving force 
in the global economy, businesses large and small are looking 
to take advantage of these new opportunities. By reducing 
emissions, supporting renewable energy, and increasing energy 
efficiency, we can reduce our environmental footprint and 
continue to create millions of high-skilled jobs.
    Small businesses play a vital role in the clean energy 
economy, from our farmers growing corn and soybeans for 
biofuels, to our manufacturers creating parts for wind 
turbines, to our utility workers and workers installing energy 
efficiency equipment. Nearly every State has seen an increase 
in clean energy jobs.
    The sector now employs more than 3.2 million people, 
outnumbering jobs in fossil fuels almost 3 to 1. These jobs are 
in a wide range of industries, many of which have had a large 
presence of small firms.
    Through innovation and hard work, many small businesses are 
bringing clean energy technologies to market, creating economic 
growth and supporting communities across the country. Even 
large scale projects, such as wind farms and solar arrays, 
create jobs and opportunities for these smaller firms.
    Moving forward, we need to make sure that we are supporting 
also our skilled workers, along with building trades and other 
union apprenticeship programs which these growing industries 
rely on to meet their workforce needs. Metal workers, 
machinists, and truck drivers are among the Americans helping 
create a more efficient and reliable clean energy future for 
our country.
    The clean energy economy has had an especially beneficial 
impact on small towns and rural areas. Rural communities in the 
Midwest, in States like Iowa, have experienced notable growth 
in renewable energy. These industries are proven job creators, 
adding more than 8,000 new jobs in 2016.
    This hearing will explore the challenges and opportunities 
to advancing energy efficiency and renewable energy 
technologies and identify what Congress can do to support the 
small businesses and skilled workforce that are the backbone of 
the clean energy economy.
    Being from Iowa, the topic of the hearing has obviously 
some very special importance to me. Our State is a leader in 
clean and renewable energy thanks to our strong agricultural 
industry, investments in wind and solar energy, and strong 
support from both the public and private sectors.
    Over a third of the energy generated in Iowa, over 36 
percent comes from wind. That is more wind energy than any 
other State, and I do happen to know wind energy does not cause 
cancer. And sadly, I jokingly say that, but unfortunately we 
need to say that. You know, I know that is something that the 
administration and our President has talked about. And it is 
not true. The facts are that wind energy is good for our 
communities and good for the environment and something that we 
should be respecting and supporting, not making fun of or 
creating false--false lies about.
    We also lead the Nation in the production of biofuels, with 
4.35 billion gallons of ethanol production and 365 million 
gallons of biodiesel production in 2018, renewable fuels make a 
significant contribution to the Iowa economy.
    Biofuels support 48,000 jobs in Iowa and have become a 
critical domestic market for corn and soybeans. However, our 
renewable fuel sector is facing hard times, which makes this 
hearing especially timely. Uncertainty surrounding some of the 
Federal policies and incentives that the biofuels industry has 
come to rely on has thrown its future and the future of my 
neighbors and Iowa farmers into jeopardy.
    This administration's unprecedented use of small refinery 
waivers have undercut the renewable fuel standard. The approval 
of these 85 waivers have killed demand for roughly 1.4 billion 
bushels of corn and are an economic blow to farmers like my own 
sister and brother-in-law who are already facing the 
devastating effects of the prolonged trade war.
    I am currently working with my colleagues on both sides of 
the aisle to call for a Federal investigation of the secretive 
exemption process for small refineries, but the question is 
whether relief will come soon enough for the biofuels industry.
    Even some of the biggest companies like ADM have seen 
profits drop by roughly 40 percent, and others have been forced 
to cut production or stop altogether. And this was happening 
even before the administration granted the additional 31 small 
refinery waivers for 2018.
    The expiration of the biodiesel tax credit has also created 
a huge challenge. This credit has been effective in helping the 
biodiesel industry develop and compete with the well-
established fossil fuel industry. Biodiesel now supports 60,000 
jobs and generates more than 11 billion in economic activity 
annually.
    Producers are now struggling to survive without the credit. 
Already at least eight biodiesel plants have shut down this 
year. Another three or four may close before the end of the 
month if this credit is not extended.
    For months now, I have been working hard on bipartisan 
legislation to renew the biodiesel tax credit. Iowa jobs are 
quite literally on the line, and we must act now to support and 
extend these tax credits.
    While pleased, obviously, that the Ways and Means has 
marked up a tax credit extender package that includes a 3-year 
extension of the tax credit, I will continue to call on the 
House and Senate leadership to please work together and extend 
the credit immediately.
    The renewable fuels industry, like our other renewable 
energy producers, have fought hard for a seat at the table and 
are an integral part of the clean energy economy. We are 
fortunate to have a biodiesel producer actually from Iowa here 
today to discuss some of the challenges facing the industry.
    And with that, I again just want to thank you all for 
taking the time out of your busy schedules to be here, and I 
really look forward to our conversation. I hope we all leave 
here today with a deeper understanding of the future of clean 
energy and how to better support our small businesses and our 
workers in these sectors.
    I also want to take a moment too to thank Ranking Member 
Dr. Joyce who is here with us today and would now like to yield 
to Ranking Member Dr. Joyce for his opening statement.
    Mr. JOYCE. Thank you, Madam Chairwoman.
    And thank you for addressing such an important issue, 
within hours of us coming back to Washington, addressing 
preparation for growing the energy economy, the clean energy 
economy, which is so important to us.
    Today, our Subcommittee will examine the economic 
opportunities, the challenges, and the clearcut benefits that 
clean energy presents to small businesses across our country.
    My home State of Pennsylvania has an extensive history of 
supplying the Nation with reliable energy. As technology has 
advanced, our methods have evolved. However, throughout these 
changes, Pennsylvania has been able to maintain its position as 
a national leader in the energy economy.
    Thanks to the vast amounts of natural resources, 
Pennsylvania maintains its position as the second largest net 
supplier of energy to all other states.
    In recent years, we have made impressive advancements to 
minimize the environmental impact of our energy production. 
Pennsylvania is home to more than 700 active wind turbines, 
many of which you will find within my district, the 13th 
District. We rank second in the Nation in nuclear power 
generating capacity, and we continue to see that Pennsylvania's 
private businesses expand their use of solar energy.
    Pennsylvania is second only to Texas in expanding natural 
gas reserves, which have more than tripled from 2011 to 2017. 
And thanks to the development in the Marcellus Shale industry, 
that has successfully occurred.
    The development of natural gas in Pennsylvania not only is 
expanding economic opportunities, but it is also helping to 
drive declining CO2 emissions in the U.S. power sector.
    According to the EPA, aggregate national emissions of the 
six common pollutants alone dropped an average of 73 percent 
from 1970 to 2017, while the gross domestic product grew by 
over 300 percent. The emissions reductions have led to dramatic 
improvements in the quality of the air that we breathe. Between 
1990 and 2017, national concentrations of air pollutants 
improved 80 percent for lead, 77 percent for carbon monoxide, 
88 percent for sulfur dioxide, 56 percent for nitrogen dioxide, 
and 22 percent for ozone.
    As a physician, I understand the importance of clean air 
for the health of all Americans. And at the same time, we must 
be careful to balance our desire to reduce emissions with 
common sense, reasonable reforms that remove regulatory 
barriers, and allow the free market to drive our solutions. We 
must be practical about where we are as a Nation and what we 
can accomplish together to develop cleaner energy supplies.
    As we focus on transitioning our energy supply to more 
renewable solutions, we cannot simply abandon traditional 
methods, but rather, must encourage innovation to attract and 
harness private capital to help accelerate deployment of future 
clean technologies. An all-of-the-above approach is the only 
way to ensure that Americans have access to affordable, 
reliable energy.
    Today, the witnesses will discuss their experiences in the 
clean energy economy and give us insight in what works best for 
ensuring that America has a reliable and secure energy 
portfolio.
    It is clearly a privilege to welcome my fellow 
Pennsylvanian and Penn State alumnus Dave Spigelmyer as one of 
our witnesses, who will share a firsthand account of the 
important role of natural gas in central and western 
Pennsylvania.
    I look forward to learning from each and every one of you 
today and having a productive discussion on this very important 
issue.
    With that, Madam Chairwoman, I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce.
    The gentleman yields back.
    And if Subcommittee members have an opening statement 
prepared, we would ask that they be submitted for the record.
    I would again just like to take a minute to explain the 
timing rules here as we move forward. So each witness gets 5 
minutes to testify, and the members get 5 minutes for 
questioning. There is a lighting system right in front of you 
to assist you. The green light will be on when you begin, and 
then the yellow light comes on when you have 1 minute 
remaining. The red light comes on when you are out of time, and 
we ask that you stay within the timeframe to the best of your 
ability.
    I would now like to introduce our witnesses.
    Our first witness is Dr. Lynn Abramson. She is the 
president of the Clean Energy Business Network, the small 
business voice for the clean energy economy, representing over 
3,000 businesses in all 50 States and across a diverse suite of 
technologies and services in energy efficiency, renewable 
energy, natural gas, and other advanced energy and 
transportation sectors.
    Dr. Abramson has earned a BA in biology from Boston 
University, and a Ph.D. in marine atmospheric sciences from 
Stony Brook University, where her research on carbon cycle 
processes spurred her interest in advancing low carbon energy 
solutions.
    Thank you for joining us today, Dr. Abramson.
    Our next witness is Mr. Thomas Brooks, who is the general 
manager of Western Dubuque Biodiesel--I know you as Tom--a 30 
million gallon production facility located in Farley, Iowa.
    Mr. Brooks is the son of a Kentucky row crop and livestock 
farmer. When starting his education, Mr. Brooks' first field of 
study was actually ministry. Mr. Brooks then later attended 
Texas A&M to study aerospace engineering. He is also an active 
member of the Corps of Cadets and was commissioned a second 
lieutenant in the U.S. Air Force in 1984 as an air weapons 
officer with a degree in sciences.
    Mr. Brooks has had more than 20 years of experience in his 
field, specifically refinement and value adding of animal fats 
and oil. He serves on the Iowa Biodiesel Board, the Iowa 
Renewable Fuels Association, and the National Biodiesel Board. 
He is a very busy guy.
    Mr. Brooks, thank you for your service and thank you for 
coming from all the way from Iowa and spending 5 hours in the 
Chicago airport to join us.
    Our third witness today is Mr. Michael Williams, the deputy 
director of the BlueGreen Alliance, an organization that unites 
America's largest labor unions with influential environmental 
organizations to solve environmental challenges in ways that 
create and maintain quality jobs and build a stronger economy.
    Mr. Williams oversees the development of the organization's 
policy and legislative agenda as well as the organization's 
revenue and fundraising efforts. He has an extensive background 
on issues related to climate change, clean energy, 
infrastructure--one of my favorites--and procurement policies, 
including overseeing the launch of BGA's landmark policy 
initiative, Buy Clean, a first of its kind policy that was 
signed into law in California in 2017.
    Mr. Williams, thank you so much for being here.
    I now yield to Ranking Member Dr. Joyce to introduce our 
time witness today.
    Mr. JOYCE. Thank you, Madam Chairwoman, again.
    Our fourth witness today is David Spigelmyer, president of 
the Pittsburgh, Pennsylvania-based Marcellus Shale Coalition, 
or MSC, the region's largest shale development trade 
association.
    Mr. Spigelmyer was instrumental in the founding of the MSC 
in 2008 and has served as the organization's Chair, Vice Chair, 
and as lead on its legislative committee.
    The Marcellus Shale Coalition, with supply chain partners 
in the Appalachian Basin and across the country, address issues 
regarding the production of clean, job-creating American 
natural gas from the Marcellus and the Utica Shale plays. One 
of its guiding principles is to implement state-of-the-art 
environmental protection across all of its operations.
    I am grateful to have Mr. Spigelmyer here with us today to 
highlight the benefits and economic opportunities that clean 
natural gas provides.
    Mr. Spigelmyer is a native of Clearfield County, DuBois, 
and a Penn State alum, as in ``We Are.'' He now lives in the 
southwestern Pennsylvania area with his wife and two children.
    I thank him as well for traveling to be with us today, and 
I am looking forward to hearing his expert insights about clean 
natural gas.
    Thank you, Madam Chair.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. The gentleman 
yields back.
    And, Dr. Abramson, you are recognized now for 5 minutes.

 STATEMENTS OF LYNN ABRAMSON, PRESIDENT, CLEAN ENERGY BUSINESS 
  NETWORK, WASHINGTON, DC; THOMAS R. BROOKS, GENERAL MANAGER, 
  WESTERN DUBUQUE BIODIESEL, FARLEY, IA; MICHAEL G. WILLIAMS, 
DEPUTY DIRECTOR, BLUEGREEN ALLIANCE, WASHINGTON, DC; AND DAVID 
  J. SPIGELMYER, PRESIDENT, MARCELLUS SHALE COALITION (MSC), 
                         PITTSBURGH, PA

                   STATEMENT OF LYNN ABRAMSON

    Ms. ABRAMSON. Chairwoman Finkenauer, Ranking Member Joyce, 
and members of the Subcommittee, thank you so much for the 
opportunity to testify today on the topic of growing the clean 
energy economy.
    My name is Lynn Abramson, and I am president of the Clean 
Energy Business Network, which serves as the small business 
voice for the clean energy economy. Our network of more than 
3,000 small and mid-size business leaders across the country 
spans all 50 States, including at least 31 professionals in the 
congressional districts that are represented by members of the 
Subcommittee.
    My remarks today will focus on growth--the growth of the 
clean energy economy as a whole, the growth opportunity that 
small businesses represent, and the vision for how policymakers 
can help business leaders deliver on that growth potential.
    Renewable energy, energy efficiency, and natural gas 
represent the growth sectors of the U.S. energy economy. 
According to data from the 2019 Sustainable Energy in America 
Fact Book, these clean energy sectors now employ 3.4 million 
American workers and supply more than half our Nation's 
electricity. And this growing industry is not only powered by 
tech giants in Silicon Valley but also by the neighbors we run 
into at the grocery store and PTA meetings--people like Bio Joe 
and Beth Renwick, the founders of Green Energy Biofuel in South 
Carolina.
    More than a decade ago, the couple tried making biodiesel 
in their garage to save money on gas. They have since turned 
their experiment into a successful business with two production 
centers, regional distribution, and several dozen local jobs 
that can't be outsourced.
    In 2017, CEBN surveyed our members on their business needs 
and priorities. We asked what were the most significant 
challenges facing their businesses, and policy topped the list 
of responses, particularly the need for more stable predictable 
policies.
    It is very difficult for Fortune 500 companies, let alone 
small businesses, to build long-term infrastructure when the 
ground is constantly shifting beneath their feet.
    My written testimony outlines detailed policy 
recommendations, relevant business case studies, and provides 
links to letters from hundreds of small businesses. But in 
brief, here are some of the most important ways Congress can 
accelerate the growth of the clean energy economy and the small 
business opportunities within it.
    First, reinstate and extend expired clean energy tax 
incentives and clarify that energy storage and waste heat-to-
power qualify for the section 48 investment tax credit.
    Second, provide robust funding in fiscal year 2020 for the 
Department of Energy overall and key research development and 
commercialization programs within the agency. I will note that 
the congressional districts represented by members of this 
Subcommittee have attracted more than $1 billion in DOE grants 
over the past 5 years.
    Third--across all Federal programs relating to 
infrastructure, such as the farm bill, disaster recovery 
legislation, transportation bills--promote the adoption of 
clean, readily available technologies that will improve energy 
reliability, security, and flexibility.
    And finally, establish stable, predictable energy policy 
goals that encourage market-based approaches and allow 
businesses to innovate and compete to offer the most effective 
affordable solutions.
    There is nothing more fundamentally American than a small 
business owner setting out to build a company. We are a Nation 
that believes that any challenge can be overcome with 
sufficient ingenuity and grit and that anyone can rise to 
success with a good idea and enough dedication. But the right 
opportunities need to exist. We need lawmakers to stand beside 
our Nation's small businesses and provide the opportunity to 
compete and grow in the U.S. clean energy economy.
    Thank you again for offering me the opportunity to testify, 
and I look forward to addressing your questions.
    Chairwoman FINKENAUER. Thank you, Dr. Abramson.
    And now I would like to recognize Mr. Brooks for 5 minutes.

                 STATEMENT OF THOMAS R. BROOKS

    Mr. BROOKS. Good morning, Chairwoman Finkenauer, Ranking 
Member Joyce, and members of the Committee. Thank you for 
inviting me to testify today. Thank you for considering the 
biodiesel industry as an important component of the clean 
energy economy.
    Small biodiesel producers are here today delivering clean 
energy and economic development. Biodiesel producers can be a 
giant driver of economic opportunity in rural communities. All 
we need to continue delivering these benefits now and for the 
future is stable policy.
    My name is Tom Brooks. I am the general manager of Western 
Dubuque Biodiesel, a small business in Farley, Iowa. Western 
Dubuque was formed by a group of eastern Iowa farmers and local 
business people. In June of 2006, we raised capital from 557 
investors, all whom live within 45 miles of the facility. The 
investment was a significant opportunity for a town of 1,500 
people.
    Today, Western Dubuque employs 24 workers at the plant plus 
28 contract drivers, for a combined payroll of $3.7 million. We 
purchase feedstocks, soybean oil, and catalysts from local 
suppliers, again adding value to the State's economy.
    The employment and economic opportunities are only part of 
how we support the local community. Western Dubuque pays more 
than $200,000 in taxes to the city of Farley each year. 
Additionally, we paid into the city's new water tower fund and 
the local Western Dubuque school expansion. I feel it is fair 
to say that the town would not be able to afford the new water 
tower and the school expansion without our company and its 
contributions. Our small business is a large economic presence 
in our small community. Moreover, we are delivering clean 
energy right now, today.
    Strong consistent Federal policy is needed to ensure 
continued success. Congress created the renewable fuel standard 
and the biodiesel tax incentive with the intent to reduce the 
transportation sector's carbon emissions and build a rural 
economy.
    Without question, the policies are succeeding. When the 
incentives were first implemented in 2005, the U.S. produced 
nearly 112 million gallons of biodiesel. Now that market has 
climbed to 2.9 billion gallons in 2017.
    Nationwide, the biodiesel industry supports more than 
65,000 jobs, $11 billion in economic impact. In many rural 
areas of the country, biodiesel plants are the driving force of 
that local economy, supporting employment for plant operators, 
truck drivers, and farmers.
    Grain farmers receive better value for their soybeans 
thanks to biodiesel. U.S. biodiesel production uses the surplus 
oil from soybean crushing, adding 63 cents to the value of 
every bushel of beans grown by the farmer. By boosting the 
value of surplus soybean oil, biodiesel lowers the price of 
soybean mill for poultry and livestock producers, thereby 
reducing our costs when we purchase meats. Informa Economics 
estimates livestock producers pay $21 less per ton for soybean 
meal due to increased biodiesel production and its use.
    Stable, forward-looking tax policy, combined with market 
signals from the RFS, can help the biodiesel industry continue 
to stimulate economic growth, but right now policies are not 
stable.
    At the beginning of this year, biodiesel producers were 
being forced to put projects on hold, reduce investments due to 
uncertainty about the renewal of the tax incentive and the 
growing number of small refinery exemptions being handed out by 
the EPA. Now, 9 months later in the year, we have seen half a 
dozen plants announce shutdowns, with more than 200 million 
gallons of capacity impacted.
    It is ironic that the EPA has such concern for the economic 
hardships facing small refineries. The exemptions the agency is 
granting to each refinery that asks are simply shifting the 
hardship to even smaller bio producers, small businesses like 
mine.
    I want to again thank Chairwoman Finkenauer for taking 
action to investigate EPA's refinery exemptions which are a 
severe threat to the clean energy economy in the rural 
communities. The economic misfortune for biodiesel producers 
flows through local rural economies. It impacts feedstock 
purchases, farm equipment purchases, and in savings and 
investments to the rural community.
    While a long-term extension would provide necessary policy 
certainty, our industry urgently needs immediate extension of 
the biodiesel tax incentive for 2018 and 2019, at least, to 
help end the current climate of uncertainty that clouds our 
industry.
    I want to thank once again, Chairwoman Finkenauer for her 
leadership and fighting to renew that credit.
    I would like to emphasize that there are successful 
policies in place to support clean energy and jobs at home, 
primarily through small businesses like mine. That progress, 
however, is in jeopardy without quick reinstatement of the 
biodiesel tax incentive and stable RFS policy over the long 
term.
    Thank you for the opportunity to submit my testimony.
    Chairwoman FINKENAUER. Thank you, Mr. Brooks. I appreciate 
it.
    And I would now like to recognize Mr. Williams for 5 
minutes.

                STATEMENT OF MICHAEL G. WILLIAMS

    Mr. WILLIAMS. Thank you, Chairwoman Finkenauer, Ranking 
Member Dr. Joyce, and distinguished members of the 
Subcommittee. My name is Mike Williams. I am with the BlueGreen 
Alliance. Thank you for convening this hearing today regarding 
the opportunities that the clean energy economy can provide.
    Small businesses are critical to our economy, and a major 
expansion of clean energy is vital if we are going to succeed 
in the fight against climate change. It is time we brought this 
thinking together, and in doing so, we must strive to do it 
right and lift up American workers.
    Chairwoman, as you noted, the BlueGreen Alliance unites 
America's largest and most influential labor unions and 
environmental organizations to solve today's environmental 
challenges in ways that create and maintain quality jobs and 
build a stronger, fair economy. Our partnership is firm in its 
belief that Americans don't have to choose between a good job 
and a clean environment. We can and we must have both.
    Many solutions are already being put into place across the 
country. Tradespeople built the Block Island offshore wind 
project off the coast of Rhode Island. Auto workers are on the 
factory floors building cleaner cars and trucks in Michigan. 
Previously unemployed workers in St. Louis and Los Angeles are 
gaining access to high-skilled jobs and energy efficiency 
retrofitting, pipefitting, and transit manufacturing, while 
companies across the country are manufacturing methane 
mitigation technologies. These are all good jobs building a 
clean energy and climate-resilient economy today, and many of 
these industries provide key opportunities for small 
businesses.
    Let's take two examples. First, the methane mitigation 
industry. Methane is an incredibly potent gas that is the 
second largest contributor to climate change. Reducing methane 
emissions can reap economic benefits for workers, businesses, 
and communities across the country. Our research has found that 
the adoption of technologies and practices to reduce methane at 
new and modified oil and gas facilities would create over 
50,000 jobs over the first decade of full implementation. Many 
of these jobs would be in the methane leak detection and repair 
industry.
    Research has found over 130 companies, with customers in 
almost every State in this growing field. More than one-third 
of these businesses were founded within the last 6 years, and 
the majority of them are small businesses. And these are good 
jobs. The median hourly wage for the industry is $30.88 
compared to $19.60 for all U.S. jobs.
    Second, companies across the country are manufacturing and 
providing services to improve the energy efficiency of our 
Nation's housing and building stock and industrial facilities. 
Energy efficiency improvements support existing jobs, increase 
the quality of jobs created, and reduce pollution. Local 
communities can also capture the benefits of energy efficiency 
retrofits, including lower utility bills, improved tenant 
health, and increased economic development.
    Small businesses are not only creating the jobs to do this 
work, but can also reap these same costs in environmental 
health benefits if they make energy efficiency updates 
themselves. There are currently over 2.3 million jobs in the 
energy efficiency sector, and roughly 70 percent of these are 
in small businesses.
    Furthermore, identifying the supply chain and moving 
policies to increase domestic manufacturing of energy 
efficiency retrofit products can also help to create quality 
manufacturing jobs. Our research has found roughly 4,500 local 
manufacturing facilities in nearly every State across the 
country doing just this.
    In New York, for example, Flower City Habitat for Humanity 
builds affordable housing for communities in Rochester. Through 
a commitment to in-state sourcing with 95 percent of parts 
coming from New York manufacturers, Flower City Habitat will be 
using windows and doors that exceed Energy Star standards at an 
affordable price. Many of these New York-based suppliers are 
IUE-CWA represented, supporting quality jobs and local 
businesses in these communities while reducing emissions.
    These kinds of opportunities are exactly what we should be 
prioritizing to revitalize American manufacturing, protect the 
environment, and create quality jobs across the country.
    Through an aggressive agenda to regain American leadership 
in clean technology innovation and manufacturing and an 
ambitious plan to rebuild and transform America's 
infrastructure, we will rebuild American competitiveness in the 
global economy and secure and create a new generation of good 
middle-class jobs across America.
    At the same time, while many clean economy jobs are good 
union jobs, too many are still not. Too many companies are 
offshoring jobs, offering substandard wages, conditions and 
benefits, or failing to provide a safe, healthy workplace. 
Progress has been made, but it is being put at risk.
    We need a commitment to high-quality job creation across 
all sectors of the economy but especially related to clean 
energy adaptation and resilience. That means a commitment to 
increasing union density, labor standards and prevailing wage, 
health and safety protections, training, and project labor and 
community benefit agreements.
    In closing, I want to reiterate that tackling the crisis of 
climate change, if done right, is a significant opportunity to 
ensure a more equitable society, increase U.S. global 
competitiveness, support and grow small businesses, and create 
quality, family sustaining jobs across the country.
    We look forward to working with you, Chairwoman, Ranking 
Member, and the whole Committee as you move forward your agenda 
for the 116th Congress. Thank you again for the opportunity to 
testify today.
    Chairwoman FINKENAUER. Thank you, Mr. Williams.
    And now I would like to recognize Mr. Spigelmyer for 5 
minutes.

                STATEMENT OF DAVID J. SPIGELMYER

    Mr. SPIGELMYER. Thank you, Chairwoman Finkenauer, Ranking 
Member Joyce, and distinguished members of the Committee. Thank 
you for the opportunity to testify today.
    My name is Dave Spigelmyer. I am the president of the 
Pittsburgh-based Marcellus Shale Coalition. We represent an 
energy producing, transmission, midstream, companies, as well 
as more than 150 supply chain businesses supporting shale 
development across the Appalachian basin.
    This is a critical and timely conversation about supporting 
our Nation's pursuit of a thriving clean energy economy, one 
that prioritizes innovation, job growth, and a sustainable 
energy future. Our country's energy landscape has changed 
dramatically over the last decade. Innovation and technology 
have enabled access to deep shale formations in the Appalachian 
basin as well as across our country which has triggered 
tremendous job growth.
    The natural gas we are producing in Pennsylvania has driven 
unprecedented environmental gains that are enhancing air 
quality and making clean energy affordable once again for 
consumers of natural gas. Furthermore, natural gas is the vital 
fuel necessary and essential to back up interruptible sources 
of renewable energy to contribute to our electric grid.
    As a result of shale development, our Nation is far more 
energy secure. In many ways, our economic and environmental 
progress is in large part owed to it.
    In Pennsylvania alone, where 20 percent of America's 
natural gas is now produced, our industry supports over 300,000 
direct and indirect jobs and contributes $45 billion to our 
State's economy, according to PriceWaterhouseCoopers.
    From Pennsylvania's labor community with union halls at 
full employment to new building tradesmen and women being 
trained, jobs are being generated to mobilize our Nation's 
energy infrastructure. Our building trades are constructing new 
power generation facilities, pipelines, and a world-class 
petrochemical complex just west of Pittsburgh. This facility 
alone is a $6 billion investment. It is one of the largest 
construction sites in America with more than 147 cranes active, 
employs 6,000 building tradesmen and women to build this world-
class facility.
    There are also countless small business owners whose 
entrepreneurial spirit has seized the opportunities presented 
by this industry, including our State's agricultural sector. 
Proceeds from natural gas development has indeed saved family 
farms.
    Pennsylvania consumers have witnessed and have benefitted 
from historic reductions in natural gas commodity prices, 
especially those on fixed incomes. Natural gas commodity prices 
for end-use consumers are down 56 to 76 percent, depending on 
which utility serves your natural gas, since 2008. And 
wholesale electric prices in the PJM ISO are down 41 percent 
since 2008, saving the average household between $1,200 and 
$2,500 annually, according to our Pennsylvania Public Utility 
Commission.
    Pennsylvania's economic strides have been met with equally 
impressive air quality achievements thanks to innovations in 
technology, tightening environmental performance standards, and 
increased use of natural gas. We have reduced volatile organic 
compound emissions which are down 51 percent, sulfur dioxide 
emissions down 82 percent, nitrogen oxide emissions down 72 
percent. And additionally, Pennsylvania's carbon dioxide 
emissions from electric power generation where natural gas is 
playing a bigger and bigger role are down 30 percent since 
2005.
    Nationally, according to the U.S. EPA, in 2017, total 
greenhouse gas emissions across the U.S. reached their lowest 
levels in 25 years, propelling the U.S. to be a world leader in 
CO2 emission reductions. This is not despite the shale 
revolution; it is because of it.
    As I stated earlier, natural gas is the most reliable and 
affordable partner for our growing clean energy economy. When 
intermittent renewable sources are unavailable, dependable 
baseload power is essential. Natural gas generators can scale 
up rapidly to meet demand, making natural gas a vital partner 
with renewable energy.
    Natural gas is also vital to our everyday lives as a 
manufacturing fuel. All steel, glass, plastics, chemicals, 
fertilizers, powdered metals, pharmaceutical medications, and 
indeed, one-third of our power generation today are produced 
from natural gas. Without a doubt, any conversation about clean 
energy must be grounded in the partnership that will make that 
possible.
    Supporting a thriving natural gas industry from production 
to pipeline deployment to its growth in power generation should 
be a core focus of any public policy discussion aimed at 
building upon the progress our industry has realized for 
Pennsylvania and in the Nation.
    As you continue to explore how Congress can best support 
the growth of our Nation's clean energy economy, I appreciate 
the recognition of this Subcommittee that natural gas is 
important and a vital component of that discussion.
    On behalf of our members and the thousands of men and women 
who work in our Nation's natural gas industry, thank you for 
having me here today, and I look forward to your questions.
    Chairwoman FINKENAUER. Thank you, Mr. Spigelmyer.
    And now we are going to begin questions from the members up 
here, and with that, I will recognize myself for 5 minutes.
    And, Mr. Brooks, since you again spent those 5 hours in 
Chicago in that airport, I feel like I should start with you. 
Thank you again for being here today.
    As you know, the biodiesel tax credit has been key to 
growing your industry in our State. I know that our gas 
stations and truck stops and, therefore, consumers and truck 
drivers also benefit from this tax credit to keep actually gas 
prices low. Can you explain how the credit works to the 
Committee? And then how does your company use the credit? And 
why is its lapse so damaging that it is forcing some plants to 
shut down?
    Mr. BROOKS. Thank you, Congresswoman Finkenauer, for the 
question. First, the biodiesel tax incentive is a dollar-per-
gallon credit available to the taxpayer who blends the 
biodiesel or renewable diesel into the petroleum diesel fuel, 
who either use or sell the mixture or trade it with their 
business. The net effect is that each gallon of biodiesel and 
renewable diesel used in the United States offers a dollar of 
revenue value throughout the value and supply chain.
    Secondly, the flexibility of the incentive, when it is 
extended prospectively, spurs both investments in production 
when the producer claims a portion of the credit and in the 
blending infrastructure when the discretionary blender uses a 
portion of the credit.
    Unfortunately, when the biodiesel tax incentive lapses, the 
market relies on Congress' history of retroactively reinstating 
that credit, so someone must bear the burden of taking the risk 
Congress will not reinstate the credit. The downside of the 
market reliance is that at least one party, the producer or the 
discretionary blender, eventually has to be held on accounts 
receivable.
    Finally, as discretionary blenders become less and less 
willing to take the pricing risk associated with the 
uncertainty of the extending tax incentive, biodiesel and 
renewable diesel producers are forced to bear the risk, the 
full risk, and are exposed to the dollar per gallon price risk 
on every gallon produced.
    Chairwoman FINKENAUER. Thank you so much. And could you 
also elaborate just a little bit further too on how the 
uncertainty surrounding the renewable fuel standard and the 
biodiesel tax credit is impacting our farmers and our rural 
communities, just a little more broadly?
    Mr. BROOKS. Yes, ma'am.
    Chairwoman FINKENAUER. And what you are hearing on the 
ground. Yeah.
    Mr. BROOKS. The uncertainty of the RFS, because of not 
growing the volumes in the last 5 years, has created havoc to 
the Midwest farmer, as seen by the prices that they are 
bringing at harvest time. They are in the red as compared to 
the first 5 years of the RFS. We have got trade wars, the 
uncertainty, then you throw the SREs into the mix. It creates a 
problem for the markets in RINs generation which affects fuel 
prices. Then the producer can't sell at a stable price, 
creating further instability in the market. And farmers that 
are investors in the plant suffer because of the grain price, 
they suffer because of the uncertainty of the market, and they 
are suffering because of the investments that they made in 
renewable energy.
    Chairwoman FINKENAUER. Thank you. And actually, something 
that I learned when I was visiting you guys at the plant not 
that long ago had to do with something that we are watching 
very closely with the Department of Commerce. Right now I 
understand that they are considering reducing countervailing 
dutied rates on biodiesel from Argentina.
    As you know, Argentina's policies were undercutting 
American biodiesel producers, and the current countervailing 
and anti-dumping duty orders were meant to level the playing 
field. In the short time that they have been in place, I 
understand that the rates have been successful in keeping out 
these unfairly priced imports.
    Can you tell us, if the Department of Commerce moves 
forward with reducing these rates, what impact will that have 
on Western Dubuque Biodiesel and other small businesses like 
yours?
    Mr. BROOKS. Good question, Chairwoman. When the 
countervailing duties were not in place, we saw production 
decrease to 60 percent of capacity throughout the Midwest and 
the United States. So the differential tax credit that 
Argentina had allowed for their feedstocks, to make biodiesel, 
allowed those imports to come into the United States cheaper 
than the farmer could even grow the bean and have the oil 
crushed from. And as a result, discretionary blenders were 
taking advantage of the market, driving prices down with 
cheaper imports coming into the country.
    Chairwoman FINKENAUER. So it would be fair to say that you 
would agree that the administration and the Department of 
Commerce and Secretary Ross should not be allowing these 
countervailing measures to go away, and if they did, it would 
be detrimental?
    Mr. BROOKS. Yes, ma'am, and I have told him as much 
personally.
    Chairwoman FINKENAUER. Thank you very much. Appreciate it, 
Mr. Brooks.
    And with that, my time is about to expire, so I would like 
to recognize Dr. Joyce for his 5 minutes.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer.
    Mr. Spigelmyer, you piqued my interest with some 
information that you discussed with the expanding shale 
industry in Pennsylvania. You talked about the positive impact 
on agriculture. Now, realize this Subcommittee also addresses 
agricultural issues and entrepreneurship. Would you please 
explain more what you were talking about in that?
    Mr. SPIGELMYER. Yeah. When leases are taken, bonus payments 
are paid. In Pennsylvania, it has exceeded $5 billion to 
mineral owners and land owners across the Commonwealth of 
Pennsylvania. And my comment was that it has indeed saved 
family farms, and that is my experience.
    As well, royalties are paid. On average, 15 percent of the 
production royalties go back to the mineral owner, and that too 
has provided valuable income back to consumer--or back to 
mineral owners in the Commonwealth of Pennsylvania.
    Mr. JOYCE. During my time in the district work period in 
August, I had the opportunity to visit the new petrochemical 
plant that Shell is building in western Pennsylvania. Can you 
talk about the economic impact of that on community and 
actually on the Nation at large?
    Mr. SPIGELMYER. Sure. It is the first of its kind 
petrochemical complex that is being built just to the west of 
Pittsburgh. About 70 percent of plastics manufacturers are 
located within 700 miles of Pittsburgh, yet they have had to 
transport the raw materials for plastics manufacturing to that 
region by truck. The savings on a cost of goods sold is about 
1.3 percent right out of the gate, but the jobs being 
generated, that is like the--the downstream jobs that will 
likely flow from that are extraordinary. That plant is expected 
to be complete in 2022.
    And I would share that it is not just the investments from 
a $6 billion facility like that. We have written the obituary 
for manufacturing in the Appalachian basin for the last four 
decades, and today we are writing birth announcements up and 
down the Ohio River. We have got not only the $6 billion that 
has been invested at that facility, we have got a billion 
dollars now being invested by US Steel. We have got the savings 
of the Marcus Hook Industrial Complex just outside the 
Philadelphia airport. We have got $13 billion of new power 
generation facilities. Again, we produce about 250 percent of 
the power that we use in Pennsylvania, and it has saved 
consumers up and down the PJM ISO, you know, 41 percent on 
their wholesale energy cost.
    And I think I would also share that from a small business 
standpoint, I would be remiss if I didn't mention that we have 
witnessed small businesses that started in 2008 with a person 
or two. I will use one for example. Steel Nation. It is a 
building manufacturer south of Pittsburgh. They had one 
employee, had less than a million dollars of gross proceeds 
annually. They now have 30 employees at that location, and 
their proceeds are $40 million annually.
    Those small business type of stories are being told over 
and over and over again all through Pennsylvania, and I am 
sure, Congress, you have a chance to talk to a lot of those 
folks every day.
    Mr. JOYCE. We are going to ask that you just bring the mic 
closer so that we can hear your important answers.
    Mr. SPIGELMYER. I am having an issue with my mike here, but 
that's fine. Thank you.
    Mr. JOYCE. You have mentioned natural gas in power 
generation, and importantly, its partnership with the 
renewables. What specifically have you observed in 
Pennsylvania? This is so important as we reach and embrace the 
all-of-the-above approach to be able to have the strong 
interaction with the reusable renewables and with the natural 
gas industry.
    Mr. SPIGELMYER. Yes. In 2004, Pennsylvania passed an 
alternative energy portfolio standard requiring 18 percent of 
their power be generated by tier 1 and tier 2 sources. Those 
are renewable sources of energy as well as new technologies. We 
are on our path there today, but I would share that in 
Pennsylvania, our wind doesn't always blow and our sun doesn't 
always shine. And consumers across Pennsylvania require that 
when they turn the switch on, their power comes on. There is no 
better partner for renewable energy than natural gas. Natural 
gas comes on quickly, it comes on affordably, and it is 
reliable in the Commonwealth of Pennsylvania.
    Mr. JOYCE. Thank you for your comments. Thank you for 
emphasizing the partnerships that we need to be able to 
achieve, the benefits to the agricultural industry which 
natural gas has occurred and developed in Pennsylvania.
    As a physician, understanding the decreased emissions--and 
we quoted very similar, I think identical numbers on the 
decreased emissions. That is important to my constituents. It 
is important to all of Pennsylvania.
    I thank you all for being here.
    Mr. Brooks, I would be amiss if I didn't thank you for your 
military service as well.
    I yield back my time, Madam Chair.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce.
    And with that, I would like to recognize Representative 
Angie Craig for 5 minutes.
    Ms. CRAIG. Thank you so much, Madam Chairwoman. Thank you 
to all of you for being here.
    And, Mr. Brooks, I wanted to start with you. As a member of 
the Ag Committee, it is an honor to fight for family farmers in 
Minnesota. I want to direct my question and also just applaud 
the Chairwoman for her work on biodiesel and specifically her 
bill to provide the 2-year extension of the biodiesel tax 
credit of which I also am an original co-sponsor.
    As you mentioned, Congress previously extended the tax 
credit retroactively for 2017, but it expired in 2018. You 
noted in your testimony that the biodiesel blenders tax 
incentive has helped achieve the desired goal of expanding 
domestic production of clean energy resources and jobs here at 
home. I know Chairwoman Finkenauer and I have frequently pushed 
for quick action, but I am curious to hear what you think 
stands in the way at this point of getting this tax credit 
extended or reauthorized, and how does that lack of certainty 
impact small businesses?
    Mr. BROOKS. Excellent question. Thank you for being a co-
sponsor on the bill. I can't answer why it hasn't happened 
specifically, but I can tell you what the impact is for it not 
being extended. We have seen years where the credit has lapsed, 
7 of the last 11 years, which has the effect of coming in in 
December or January and February, which brings no value to the 
producer or the blender missing gallons, and it creates an 
uncertain market for the person buying downstream because they 
don't know if the credit is coming. Should they buy the gallon 
or not buy the gallon. So I sell to discretionary blenders who 
take on a portion of that credit just like I do.
    So we have an accounts receivable that is out for 21 
months. That is hard to run a business when you have 
receivables out 21 months, even for a discretionary blender and 
other small businesses like ours. So getting it reinstated 
would be greatly appreciated.
    Ms. CRAIG. Thank you.
    Mr. Williams, I wanted to ask you as you--thank you for 
what you do at the BlueGreen Alliance as well. How do we 
prepare the current and future workforce? I spent about 4 years 
as the head of HR for a major organization in Minnesota, but 
how do we prepare American workers to be part of this growing 
clean energy economy?
    Mr. WILLIAMS. Thank you, Congresswoman. The question--and 
for your work. We are founded in Minnesota, so we appreciate 
your service there as well.
    So a public investment in training and preparedness, plan 
development, economic development, but especially that point on 
training is incredibly important to this. And it is incredibly 
important that when the Federal Government invests in training 
and workforce development, it does so in partnership with local 
communities, with unions, with registered apprenticeship 
programs, with community colleges, and especially leaning on 
working with unions and specifically registered apprenticeship 
programs in the construction and building trades industries, 
because there is a significant amount of expertise there, and 
we want to be able to lift up the expertise and the work that 
is already happening. So there is a number of pieces of 
legislation that have done this, but that would be what I 
recommend.
    Ms. CRAIG. Thank you.
    And then finally, I just wanted to say, Dr. Abramson, thank 
you for presenting the DOE grants. It was incredibly 
enlightening, and I have got to figure out what we are doing in 
the Second Congressional District and help us get more of those 
grants. So thank you.
    Madam Chair, I yield back.
    Chairwoman FINKENAUER. Thank you, Congresswoman Craig.
    And with that, I will recognize Representative Jim Hagedorn 
for 5 minutes.
    Mr. HAGEDORN. Thank you, Madam Chair. It is a pleasure to 
be here. I thank the witnesses.
    As a representative from a rural district in Minnesota and 
someone who serves on the Ag Committee, I am part of the 
Biofuels Caucus. We certainly support biodiesel, ethanol, those 
things. We would like to see the tax credits extended again, 
reinstated, and also make sure that we do get the small 
refinery and other issues cleared up.
    I spoke with some people at Agriculture, including the 
Secretary himself over the break, and he said they are working 
on that, and I think maybe we will see some progress here in 
the near future. So, hopefully, that will go well. We support 
the industry.
    Thank you, Mr. Brooks, for being here.
    You know, small business does depend on energy, all of the 
above, and back talking on the break, manufacturers, it doesn't 
matter, you know. Trucking companies, everybody, they need 
abundant, reliable, low cost energy. And sometimes I think we 
get a little conflicted where we feel, and maybe there is--you 
know, folks think that the world's coming to an end and we have 
to make all these, you know, big changes, Green New Deal and 
all that. And that, I guess, could drive making changes at any 
cost, but I don't believe in that. I think we need to be 
efficient. We need to do things that are going to be right for 
our economy and right for our consumers and everyone else.
    So all of the above makes sense to me in keeping downward 
pressure on the cost of energy, because when the price of 
energy is inflated needlessly, the price of every cost and 
service in our economy goes up, takes money out of people's 
back pockets, makes us less competitive around the world. It is 
not a good thing.
    And we also need not just all of the above but the energy 
infrastructure, and I was happy to hear about pipelines, 
refineries, distribution points and, you know, this talk about 
labor and how these things can all connect. But the labor folks 
that I talk to are a little disappointed because a lot of 
pipeline projects out there, a lot of refinery projects and the 
folks that are, quote/unquote, for clean energy are the ones 
blocking those.
    We have a pipeline in northern Minnesota, Enbridge 3. It is 
a replacement for crude oil. And, you know, the clean energy 
folks say we shouldn't do it because we should get off of 
fossil fuels, but there is no path at this point to eliminate 
fossil fuels from our economy. As a matter of fact, there is no 
technology that can get us there for even electricity 
production. We don't have the battery storage technology in an 
efficient way or even a practical way to make that happen. So 
until that, it would be irresponsible, I think, for us to try 
to run our traditional energy companies out of business while 
we are promoting the, you know, so-called again clean energy. 
Nothing is clean. There is issues with every source of energy.
    But I was very impressed, Mr. Spigelmyer, with your 
testimony about what is going on in natural gas and the way 
that great American technology is being used to first locate 
that gas and go get it and then driving down emissions, driving 
down costs, providing the baseload power that is necessary in 
order to make sure that our small businesses and consumers and 
everybody can rely on that.
    One of the things, again, I see in conflict is that some of 
the folks that would like us to move from, let's say, coal-
fired power plants to natural gas, you know, think that is a 
good move, but then they don't support fracking. What is your 
opinion of that? I mean, right now, don't we have about a 300-
plus year reserve of gas that we predict, and we are exporting 
it and all these other things?
    Mr. SPIGELMYER. It is a great reflection, Congressman. I 
would share that we have gone from a period of high price and a 
lack of supply to periods of abundance and affordability, all 
driven by technology. Some would think it is because of 
hydraulic fracturing. We have actually been hydraulically 
fracturing natural gas wells in America since the early 1940s.
    Hydraulic fracturing certainly plays a role in releasing 
not only natural gas but liquid hydrocarbons to the surface, 
but the technology changes in production today are the ability 
to turn a drill bit horizontally to produce far more than 
anyone ever thought possible through unconventional horizontal 
development. And as you mentioned, reserves in the neighborhood 
of 300-plus years are certainly possible through this 
technology.
    I would share with you that we put this coalition that I 
represent 10 years ago. None of us thought that Pennsylvania 
could go from 180 BCF of production or 180 billion cubic feet 
of production to over 6 trillion cubic feet of production in 10 
years. We are now the number two producer of natural gas in 
America as a result of that technology improvement.
    Mr. HAGEDORN. I would also add that, you know, a lot of--I 
am not at all against or opposed to wind and solar. I support 
it. I think we should just be practical about it. It is an 
intermittent source, and it can contribute, but it is not the 
panacea at this point because of technology. But if we want a 
lot of wind and solar, we also need a lot of copper and other 
types of materials, and we have to get that through mining. And 
we also want to do that in Minnesota, and some of the folks, 
again, that say they are for clean energy don't want the 
mining. So maybe there is some conflict to be worked out on 
both sides.
    Thank you. I yield back.
    Chairwoman FINKENAUER. Thank you, Representative Hagedorn.
    And with that, I will recognize Representative Jared Golden 
who is the Chairman of the Subcommittee on Contracting and 
Infrastructure, again, one of my favorites, for 5 minutes.
    Mr. GOLDEN. Thank you, Madam Chair.
    Mr. Williams, I just wanted to point out something that--
and I follow your organization closely, and I appreciate the 
work that you do and the effort that you are making. I wanted 
to point out some things going on in Maine for your alliance to 
look into.
    One is we have some loggers who have joined the machinists 
union of late. And when talking about the renewable fuel 
standard in woody biomass, we have a problem in Maine, and I 
think most of the northeast and parts of the southeast as well, 
which is that it currently only allows for woody biomass that 
comes from planted trees and tree residue from actively managed 
tree plantations.
    Of course, about 57 percent of our forests in the United 
States are owned by private citizens, families, private 
cooperatives, industries, and others. And the majority of these 
rely on natural regeneration for stand establishment and not 
artificial regeneration like we see in plantation forests. So 
it feels like we are leaving a lot of potential biomass in the 
woods, so to speak. And I think that, you know, we have been 
pushing as a Maine delegation to get the EPA to treat this a 
little bit differently and get that woody biomass that is 
naturally regenerative into the market, you know, and assisted 
through the Renewable Fuel Standard.
    I would also point out for your organization's interest 
that this isn't just about the loggers but the biomass 
facilities themselves, some of which are going out of business 
as, you know, investors look elsewhere where there are other 
energies, you know, that are reliable--can be, you know, 
supported through the Renewable Fuel Standard and other tax 
incentives and others that just aren't being prioritized for 
biomass.
    In addition, we have got the saw mills and a lot of other 
forest products manufacturers, many of whom are union to 
include steel workers, boilermakers, machinists, electricians, 
and others, but I just think there is some space for you to get 
involved and step in and be supportive of some of these 
changes. So I wanted to share that with you.
    I am also excited about growth of solar in the State of 
Maine, but there is a lot of talk about the need for some 
apprenticeship programs and others as we see that growing 
workforce coming into our State. There is a workforce shortage 
and a need for apprenticeship opportunities in others. Don't 
forget about Maine, is all I would say about that.
    Dr. Abramson, I want to ask you just about your membership 
in general. Do you have a lot of members that directly use 
biomass or provide equipment or services to clients who 
generate with biomass? And also, we have a great bill. Senator 
Angus King sponsored the Biomass Thermal Utilization Act which 
would add tax incentives for the installation of energy 
efficient wood boilers, stoves, and heaters, residential and 
commercial, so maybe you would be supportive of that as well.
    Ms. ABRAMSON. Yes. Thank you so much. And just to note on 
that last point, I mean, we are supportive of across the board 
incentivizing energy technologies, you know. The incumbent 
energy industries have historically enjoyed tax credits, and 
that has been incredibly valuable in promoting economic 
development and the growth of new industries in this country 
and the renewable energy and energy efficiency biodiesel 
industries. And as you noted, the thermal, you know, energies 
industries certainly should benefit as well from long-term 
stable tax policies that can incentivize these technologies.
    To your earlier question regarding our membership, it is 
quite diverse. We have renewable energy, energy efficiency, 
natural gas, combined heat and power, waste heat to power, 
biomass, biodiesel, storage grid technologies, carbon capture. 
I mean, it is quite, quite extensive, and it just speaks to the 
breadth of the clean energy economy.
    I would say in Maine, actually, one exciting member that I 
have actually noted in my written testimony----
    Mr. GOLDEN. I read that.
    Ms. ABRAMSON.--is Kay Aikin from Introspective Systems who 
was just in town a little bit ago in March to talk about how 
the Department of Energy has helped her commercialize her 
advanced microgrid technology and software solutions, which she 
is now bringing to bear in solutions such as providing reliable 
power to the Isle au Haut, Maine, which is currently under 
jeopardy because they have this 7-mile pipeline or cable, 
rather, undersea cable that is at risk of failure, and she is 
replacing that with a solar and storage microgrid solution. So 
it is a terrific case study.
    Mr. GOLDEN. I am glad you shared that in your testimony. We 
have a lot of island communities. And talking about battery 
storage, solar, wind, and others, you know, with the more 
traditional sources of energy is, I think, important for the 
future of those communities. Obviously, that is not special 
just in the Maine coast, so thank you----
    Ms. ABRAMSON. Thank you.
    Mr. GOLDEN.--for sharing that.
    Now, lastly, Mr. Williams, I just wanted to share. Wind 
energy potential in Maine--I think a lot of you know this too--
is huge. In fact, the Gulf of Maine is, I think, unique in its 
ability to produce wind power offshore. However, you know, you 
have got some experience trying to pull together alliances that 
sometimes people may traditionally think are at odds, so I 
would love to hear your feedback at some point about how we can 
tap into that, you know, energy source for the State of Maine. 
I think about 3 percent of the shoreline, if we were to utilize 
that for wind, could power almost the entire State.
    Of course, we would have to talk about how to get that 
energy into the grid, but beyond that, I think a lot of 
lobstermen and also machinists in Maine are rightfully 
concerned about how that offshore wind could impact their 
fisheries. We have got some work to do to build a coalition 
that can work together, and maybe the BlueGreen Alliance has 
some experience with this type of work and could help.
    Mr. WILLIAMS. Yeah. Really quick, so I live in Maine, 
actually.
    Mr. GOLDEN. I didn't realize that.
    Mr. WILLIAMS. Not in your district, sadly, though. But been 
working closely with the IBEW on solar, the AFL-CIO. The 
question on woody biomass was great earlier, and we would love 
to talk further. Those conversations need to be updated. They 
are based on previously held notions. We need to dig into that 
further.
    On offshore wind, I just want to flag. I have been working 
with the ironworkers in Maine. There is going to be a 
conference held on October 16 in Portland, so we would love for 
you to come or send staff. We would love to help dig into that 
further.
    Mr. GOLDEN. Thank you very much.
    Chairwoman FINKENAUER. Thank you, Representative Golden.
    And now I would like to recognize Representative Burchett 
for 5 minutes.
    Mr. BURCHETT. Birch like the tree and et like I just et 
breakfast, Chairlady.
    Thank you for letting me poach your Committee. I am not a 
member of this Committee, and I am honored that you would let 
me be here for a short moment.
    And thank you, Ranking Member Joyce, as well. Thank you.
    While I am not a member of the Subcommittee, I appreciate 
y'all allowing me to be here to discuss this important topic. I 
think there is plenty of opportunities in the clean energy 
economy for innovation, job growth, and growing small 
businesses across the country, and I know that there is going 
to be plenty of different approaches to doing all of this. And 
I am hopeful whatever we do, we can keep our free market 
principles in mind when we look at different approaches.
    For example, I recently introduced the Carbon Capture 
Improvement Act. See how I worked that in there? I just worked 
that in there that I had a bill that dealt with this. This is a 
bill that would provide industrial facilities and power plants 
a financial incentive to invest in carbon capture and storage 
equipment. The goal here would be to invest in companies that 
are working to grow clean energy.
    I think we ought to incentivize business to lower carbon 
emissions rather than force it on them through more regulations 
that seem to just employ bureaucrats and not really accomplish 
what we attempted to do. And I would suggest that I would like 
for y'all to take a look at them and see if you are interested 
in helping support this initiative.
    Aside from that, I would like to know what you all see as 
the most important step we should be taking to ensure this 
sector is getting the support needed to continue to grow this 
economy. And I will stop there.
    Ma'am, you are nodding your head, so why don't you just 
jump in?
    Ms. ABRAMSON. Well, I would be happy to jump in. I think 
two areas that I noted in my testimony that are particularly 
critical, one includes appropriations. This is an area where 
there are some promising technologies. We do need to continue 
to invest in developing those technologies and bringing down 
costs. And we have some members not so much working in the 
larger carbon sequestration projects, although there are some 
very exciting ones out there such as NetPower which is 
developing a zero emitting natural gas facility in Texas which 
is very exciting. And then we have others that are investing in 
carbon capture utilization, so developing bio products or other 
materials out of carbon and sequestering it through that 
mechanism.
    So I do think continued funding is important--because one 
of the things we hear is that venture capitalists are not going 
to necessarily help fund unproven technologies. They want to 
see that the technology has already been demonstrated, and that 
is where the government comes in, where we can invest in 
promising technologies that could have both economic and 
environmental benefits and help them bring those technologies 
to commercialization so the private sector--we can leverage 
those private sector dollars to continue that work.
    So I would say appropriations is critical. And then whether 
we are talking about regulation or legislation such as tax 
incentives having, I think to the extent possible, that we can 
incentivize across the board and allow technologies to compete, 
that is extremely helpful.
    Mr. BURCHETT. Anyone else?
    Mr. SPIGELMYER. I will just jump in that carbon capture and 
storage is certainly a huge opportunity for enhancing, you 
know, recovery of liquid hydrocarbons. I know the Department of 
Energy is spending a fair amount of money through their NETL 
(National Energy Technology Labs) programs across the country. 
I did have a chance recently to talk to Deputy Secretary 
Winberg at the Department of Energy, and I know they are 
spending a fair amount of money to take a look at how carbon 
capture and storage can enhance recovery of not only natural 
gas but natural gas liquids as well.
    Just one add on I would have. There was a comment made 
about methane. To give you a perspective, in 2008, natural gas 
pricing at the wellhead was $13.71. Just this past week, 
bidweek pricing for September was $1.61. Operators in my space 
have every incentive to capture every single molecule of 
natural gas that they can capture because it is the product 
that they sell. They have an incentive to make sure they have 
technologies in place to make sure we are not allowing methane 
to escape into the atmosphere, and we are doing just that.
    Mr. BURCHETT. Do we have any facts or figures on how much 
methane is being produced, I guess you would say, anaerobically 
through our landfills?
    Mr. SPIGELMYER. You know, it is a great piece that fits 
into the renewable portfolio standards of almost every single 
State in the country where, you know, landfill gas is adding to 
power generation and new technology for, you know, for business 
growth as well. I don't have a figure on how much that is, but 
it is significant, sir.
    Mr. BURCHETT. Chairlady, I will yield back the remainder of 
my 4 seconds. Thank you, ma'am.
    Chairwoman FINKENAUER. Thank you, Representative Burchett.
    And thank you all so much for taking the time today. It 
truly does mean a lot that you all traveled all this way and to 
have your voices heard and to have us be able to ask you these 
questions that we think are very important for Congress to hear 
and learn from.
    And, you know, I just have to tell you, you know, as we 
start to look at tackling the unprecedented challenges that 
come with climate change and unpredictable weather, you guys 
know this, it is more important than ever before to continue to 
support our clean energy economy. But it is also more important 
than ever to be here and listening to each other, and also 
making sure that we are tackling this in a way that we are 
listening to different districts throughout the country and 
bringing folks together about what works in their district, 
what they have been doing that has been working well, how do we 
do more of what works well, and how do we create the innovation 
necessary to tackle the changes that are needed to be made to, 
again, address climate change and make sure that, again, we are 
bringing folks together as we do it.
    I think it is incredibly important, and I am just really 
grateful to all the members of the Committee here today where 
we can have those conversations and the folks that wanted to, 
you know, again testify. And there is a lot going on in all of 
our districts. I know I have got my friend in biodiesel here, 
but, you know, there is great work being done in wind and in 
solar and actually in methane capture too from our farmers as 
well. That is actually one of the first bills that I helped 
passed through the State house over 5 years ago, and these are 
the types of things that have been happening. We need to 
continue to support the innovation. And I am just again very, 
very grateful.
    And also, on top of all of it, as we have heard here today, 
small businesses are at the forefront of the clean energy 
economy and some of this innovation promoting new technologies 
in both renewable energy and energy efficiency. From the field 
to the factory floor, small businesses are playing a very key 
role.
    Our conversations today also underscore the fact that the 
clean energy economy supports millions of high-skilled workers 
and jobs. With the production of certain energies like wind and 
biofuels largely concentrated in rural areas, these industries 
can be a boon to small communities around them. Considering 
that job growth in rural areas continue to lag behind the rest 
of the country, clean energy is a real opportunity to stimulate 
economic growth in our rural communities. Federal and State 
investment in incentives for clean energy and energy efficiency 
have played a signature role in growing these industries and, 
in turn, supporting our small businesses.
    The testimonies that we heard today demonstrate why these 
incentives like the biodiesel tax credit must be consistent. 
Business owners need certainty. Mr. Brooks should not be 
guessing from year to year whether he can use his important 
credit. Our conversations today underscore the need for the 
biodiesel tax credit immediate extension, and I will continue 
to call for its passage in the House and in the Senate.
    The clean energy economy has an outside impact on Iowa's 
rural communities and our small towns, as we have discussed 
here today, and, you know, these growing industries will 
undoubtedly continue to be an important part of our country's 
economy for decades to come.
    This hearing is just one of the many steps that this 
Committee is taking to look at how our small businesses and our 
entrepreneurs across the country, especially, again, those in 
rural areas, this is Rural Development, Ag, Trade, and 
Entrepreneurship Subcommittee, continue to grow and thrive. I 
look forward to continuing to work with each of you on these 
important issues.
    And again, I just want to say thank you to Dr. Joyce for 
his work here on the Committee today as well and bringing 
perspective again from all across the country.
    And I would now like to ask unanimous consent that members 
have 5 legislative days to submit their statements and 
supporting materials for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are now adjourned. Thank you.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
